No.19-_
IN THE

$Upreme <!ourt of tbe mlniteb $late%
CTIA - THE WIRELESS ASSOCIATION®,

Petitioner,

V.

THE CITY OF BERKELEY,
CALIFORNIA, AND CHRISTINE DANIEL, CITY MANAGER
OF BERKELEY, CALIFORNIA, IN HER OFFICIAL
CAPACITY,

Respondents.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 30th day of September, 2019, I caused three copies of the Petition for a Writ
of Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.

Counsel for Respondents:
Farimah Faiz Brown
Christopher David Jensen

OFFICE OF THE CITY ATTORNEY

2180 Milvia St, 4th Floor
Berkeley, CA 94704
(510) 981-6997
fbrown@cityofberkeley.info
cjensen@cityofberkeley .info

Amanda Shanor

YALE LAW SCHOOL

127 Wall S
New Haven, CT 06511
amanda.shanor@yale.edu

Lester Lawrence Lessig, III
HARVARD LAW SCHOOL
1563 Massachusetts Ave, Areeda 235
Cambridge, MA 02138
lessig@law.harvard.edu

